<html>
<title> - IMPROVING AMERICAN ECONOMIC COMPETITIVENESS THROUGH WATER RESOURCES INFRASTRUCTURE: FEDERAL PANEL</title>
<body><pre>[Senate Hearing 116-218]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-218

  IMPROVING AMERICAN ECONOMIC COMPETITIVENESS THROUGH WATER RESOURCES 
                     INFRASTRUCTURE: FEDERAL PANEL

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                            OCTOBER 23, 2019
                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
                
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
40-658 PDF               WASHINGTON : 2020           
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 23, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               WITNESSES

Fisher, Ryan, Principal Deputy Assistant Secretary of the Army 
  for Civil Works, and Acting Assistant Secretary of the Army for 
  Civil Works....................................................     4
    Prepared statement of Mr. R.D. James, General Semonite, and 
      Ms. Bertrand...............................................     7
Semonite, Lieutenant General Todd, Commanding General and Chief 
  of Engineers, U.S. Army Corps of Engineers.....................    10
Bertrand, Charlotte, Deputy Assistant Administrator for Policy, 
  Office of Water, U.S. Environmental Protection Agency..........    12

 
  IMPROVING AMERICAN ECONOMIC COMPETITIVENESS THROUGH WATER RESOURCES 
                     INFRASTRUCTURE: FEDERAL PANEL

                              ----------                              


                      WEDNESDAY, OCTOBER 23, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Cramer, 
Braun, Rounds, Sullivan, Wicker, Ernst, Merkley, Gillibrand, 
Markey, and Duckworth.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    There is one change in the agenda. Unfortunately, R.D. 
James will not be able to join us this morning to testify. In 
his place to testify is Ryan Fisher, the Principal Deputy 
Assistant Secretary of the Army for Civil Works, and Acting 
Assistant Secretary of the Army for Civil Works.
    So Deputy Assistant Secretary Fisher, welcome. We are glad 
you could join us today.
    Last month, this Committee held our first hearing on the 
importance of passing a new Water Resource Development Act for 
2020. This legislation authorizes projects and funding for the 
Army Corps of Engineers Civil Works program.
    At last month's hearing, we held from a panel of 
stakeholders that included cattle ranchers and farmers. We also 
heard from witnesses involved in marine construction and port 
operations, and ecosystem restoration projects.
    Today we are going to be hearing from the Army Corps on how 
we can best address water infrastructure needs and the 
challenges in upcoming legislation. It is also a chance for 
Committee members to conduct oversight into the implementation 
of programs and projects that were enacted in America's Water 
Infrastructure Act which was passed by this Committee and 
signed into law in 2018.
    America's Water Infrastructure Act included numerous EPA 
water and wastewater infrastructure authorizations. Today we 
will be hearing from the EPA on the implementation of those 
provisions.
    This Committee has established a tradition of working 
across the political aisle to pass meaningful water 
infrastructure legislation every 2 years. We did it in both 
2014 and in 2016 under Senator Inhofe's chairmanship. We did it 
again in 2018 with America's Water Infrastructure Act, which 
passed the Senate by an overwhelming vote of 99 to 1. I look 
forward to doing the same again in 2020.
    New water resources legislation in 2020 should continue to 
prioritize flood prevention and the modernization of our 
Nation's levee systems. This will protect lives and property.
    For example, this spring we saw homes and farms and fields 
across all of Missouri, Mississippi, Arkansas, the river basins 
destroyed as a result of extreme rainfall and rapid snowmelt. 
Billions of dollars in economic losses were incurred by 
America's farmers and homeowners.
    This bill should also ensure that western States continue 
to have adequate water supplies. Wyoming is a good example of 
how critical water supply really is, not only for drinking 
water, but also for ranching and for farming. As I said in our 
September hearing, water is the cornerstone of Wyoming's 
economy.
    The Army Corps needs to prioritize the implementation of 
America's Water Infrastructure Act provisions to increase water 
storage capacity. The provisions will reduce sediment in 
reservoirs, increasing access to water for western States.
    This Committee should also continue to be proactive in 
combating the threat posed by invasive species. Invasive 
species exist on land and in the water. They significantly 
degrade water quality and availability for farmers, ranchers, 
and native species, and rural communities all across America. 
Species such as the zebra mussels that clog water 
infrastructure; Russian olive and salt cedar steal precious 
groundwater.
    This bill should also continue the tradition of authorizing 
important projects that will increase the navigability of our 
Nation's waterways. Our Nation's inland waterways in particular 
are a vital commercial network that transports agriculture 
goods, raw materials, and products from middle America to the 
coasts and beyond. These projects are vital to the economic 
health of our country, and will keep America's economy strong.
    I look forward to working with my colleagues to pass 
bipartisan water infrastructure legislation in 2020.
    With that, I would like to turn to Ranking Member Carper 
for his testimony.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    Good morning, everyone, and welcome, one and all.
    My thanks again to you, Mr. Chairman; to our colleagues, 
Senator Inhofe and Senator Cardin; and to your staffs for 
working with us to improve America's water infrastructure.
    Last Congress, I am proud to say we worked together in a 
bipartisan way, much as we had in previous years under the 
leadership of Chairman Inhofe and Barbara Boxer, to address 
major challenges to our country's water infrastructure. 
However, we still have work ahead of us.
    I believe that every American deserves equal access to 
clean, safe, reliable, and affordable drinking water. That is 
why I believe our Committee must continue to conduct oversight 
on the implementation of the 2018 law, and act, if needed, to 
refine the Federal programs that are essential to achieving 
that important goal.
    Earlier this year, our Committee held a hearing with 
stakeholders to kick off the WRDA 2020 process. I expect that 
today will be a continuation of that hearing and provide us 
with yet another opportunity to reflect on the last WRDA bill 
as we look ahead to the next one.
    Let me begin by raising an issue that bears repeating. 
During the drafting process for the last WRDA, this Committee 
repeatedly heard that the Office of Management and Budget 
micromanages the Corps of Engineers. There continues to be a 
troubling lack of transparency with respect to how OMB reviews 
Corps projects. This concern was echoed by both the Republican 
and Democratic witnesses last month.
    Mr. Chairman, I want to submit for the record witness 
testimony from Jamey Sanders, Vice President for the Choctaw 
Transportation Company, who testified last month on behalf of 
the Associated General Contractors of America.
    Senator Barrasso. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Carper. Thank you, sir.
    In his statement, Mr. Sanders called on Congress to 
``reform the benefit-cost analyses and eliminate duplicative 
and confusing accounting process,'' that is used by OMB. The 
benefit-cost analyses to which Mr. Sanders is referring is the 
tool that OMB and the Corps use to prioritize projects, and we 
have heard repeatedly from stakeholders that this method of 
prioritization fails to capture all of a project's benefits, 
because it considers only national economic impacts.
    All of this means that the Corps' budget and work plans 
often fail to include projects that would address critical 
needs in smaller, coastal, rural, disadvantaged, and tribal 
communities.
    As I understand it, Assistant Secretary James has been 
working diligently with his team to implement the 2018 law, 
including fulfilling many reporting and transparency 
requirements.
    However, OMB adds additional layers of review on Corps 
projects to which no other Federal project agency is subjected. 
While there are a number of outstanding Corps projects 
underway, I am confident that Secretary James and General 
Semonite will ensure the Corps' work is completed.
    That said, it is my understanding that OMB, which is under 
the Office of the President, is the real culprit behind the 
Corps documents, reports, and projects that remain 
significantly delayed. Meanwhile, these needless delays are 
happening at a time when our country faces a tremendous backlog 
of Corps projects and water infrastructure maintenance needs.
    Millions of Americans across the country rely on Army Corps 
projects to safely navigate waters, to stay safe from flooding 
and storm damage, and reap the benefits of healthy aquatic 
ecosystems and marshlands. At the end of the day, we need 
greater investment in Corps projects, not less. We also need 
for OMB to be an effective and cooperative partner, and if that 
is a role that OMB is unwilling, or unable, to play, perhaps 
they should consider just stepping aside.
    Needless to say, I am disappointed that we do not have a 
witness here today from OMB.
    Let me close by noting that the 2018 WRDA legislation 
included a number of drinking water and wastewater provisions, 
the most significant of which was the first reauthorization of 
the Drinking Water State Revolving Loan Fund in 22 years. 
Issues surrounding clean drinking water continue to be one of 
the top priorities for me and I know for many of our colleagues 
on this Committee and in this Congress.
    The fact is, we need to ensure that every American has 
clean, safe, and reliable water to drink. So, as we get to work 
on our 2020 WRDA bill, I think it is critically important that 
we keep that clear goal in mind.
    Mr. Chairman, thanks again for pulling this together. I 
look forward to hearing from our witnesses today and to working 
with all of the members of this Committee in the months ahead 
to craft the next bipartisan WRDA bill for the full Senate to 
debate, amend if needed, and pass so that we can go to 
conference with our colleagues in the House of Representatives.
    We look forward to hearing from R.D. James in his different 
form; I am sorry he can't be with us today.
    Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    In just a moment, we will hear from our witnesses. Ryan 
Fisher, who is the Principal Deputy Assistant Secretary of the 
Army for Civil Works of the United States Department of the 
Army; General Todd Semonite, who is the Chief of Engineers and 
Commanding General of the U.S. Army Corps of Engineers; and 
Charlotte Bertrand, who is here as the Deputy Assistant 
Administrator for Policy at the United States Environmental 
Protection Agency.
    Welcome to all of you.
    I want to remind the witnesses that your full written 
testimony will be made a part of our official hearing record 
today. Please try to keep your statements to 5 minutes, so that 
we may have time for questions.
    With that, I look forward to hearing your testimony, 
beginning with Mr. Fisher.

STATEMENT OF RYAN FISHER, PRINCIPAL DEPUTY ASSISTANT SECRETARY 
OF THE ARMY FOR CIVIL WORKS, AND ACTING ASSISTANT SECRETARY OF 
                    THE ARMY FOR CIVIL WORKS

    Mr. Fisher. Thank you, Mr. Chairman, Ranking Member Carper, 
and distinguished members of the Committee. I am honored to 
testify before you here today.
    I am here no behalf of my boss, Mr. R.D. James. He is the 
Assistant Secretary of the Army for Civil Works, and I am here, 
of course, as an appointee myself, on behalf of the 
Administration.
    Thank you for this opportunity to discuss the U.S. Army 
Corps of Engineers Civil Works program. I look forward to 
continuing to work with this Committee and the Congress on 
water resource issues that are of interest to the Nation.
    The Army Civil Works Program, which is the Nation's largest 
water resources program, has three main missions: commercial 
navigation, flood and storm damage reduction, and aquatic 
ecosystem restoration. Some of the projects that the Corps owns 
and operates also have ancillary purposes, such as hydropower, 
recreation, water supply, and fish and wildlife.
    We constructed these projects under congressional 
authorizations, such as those provided through Water Resources 
Development Acts. The Army Corps, with oversight by the 
Assistant Secretary of the Army, uses its engineering expertise 
and its relationships with other Federal agencies, State 
agencies, our project sponsors, and other stakeholders to 
develop innovative approaches to address some of the most 
pressing and complex water resources challenges facing the 
Nation.
    Such challenges include addressing the Nation's dredging 
capacity to ensure our harbors stay open and navigation lanes 
clear, the protection of communities from devastating flood 
impacts, and the restoration of significant ecosystems. It is 
critical that we work with non-Federal partners and other 
Federal agencies to develop tangible solutions and get it 
right.
    The Assistant Secretary of the Army certainly recognizes 
the importance of deliberative and responsive stakeholder 
engagement as highlighted by a recent decision to further 
consider policy implications posed by the draft water supply 
rule.
    The ASA Civil Works focus includes identifying the highest 
priority investments for the Army Civil Works Program, and 
ensuring that we deliver studies and projects in a more timely 
and efficient way.
    We recognize the importance of delivering authorized water 
resource projects to the communities of our great Nation, and 
with the help of Lieutenant General Semonite and his team, the 
Army Corps is committed to improving the execution of the Civil 
Works program.
    Over the last 2 and half years, the Army Corps has worked 
to improve its policies and streamline its delivery of 
infrastructure. We are speeding up how we do business to 
deliver projects sooner. We are not only accelerating project 
delivery, we are also improving permitting processes and 
reforming regulations to enable projects to be built faster, 
more cost effectively, and certainly more efficiently as well.
    We are right sizing decisionmaking; we are moving decisions 
from Washington to the level appropriate, to where the work is 
being done and by simplifying unnecessarily complicated and 
bureaucratic processes. We are completing targeted updates of 
policies to better deliver infrastructure projects and 
streamline permitting.
    The Assistant Secretary of the Army for Civil Works is 
committed to ensuring that the Army Corps continues to identify 
the best ways to manage, develop, restore, and protect water 
resources in collaboration with our project sponsors and other 
partners. Our goal is to achieve a high economic, 
environmental, and public safety return for the Nation, which 
will benefit all Americans.
    Thank you for inviting me here today. I look forward to 
your questions.
    Thank you.
    [The prepared statement of Mr. R.D. James, General 
Semonite, and Ms. Bertrand follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Barrasso. Thank you very much, Mr. Fisher.
    General Semonite.

   STATEMENT OF LIEUTENANT GENERAL TODD SEMONITE, COMMANDING 
  GENERAL AND CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

    General Semonite. Chairman Barrasso, Ranking Member Carper, 
and distinguished members of the Committee, thank you for the 
opportunity to testify today.
    This is my fourth consecutive testimony before this 
Committee, and I sincerely appreciate your unwavering support 
over my tenure as Chief. Together, we have all accomplished a 
great deal.
    Secretary James and I are continuing to work together to 
address water resource challenges across the Nation. I look 
forward to speaking with you today about America's Water 
Infrastructure Act of 2018, and the Corps' aggressive execution 
of this civil works program.
    The Army Corps of Engineers is committed to a performance 
based civil works program based on innovative, resilient, and 
sustainable risk informed solutions. Since Congress first 
authorized our navigation mission in 1824, the Corps has worked 
hard to develop and implement solutions to our Nation's water 
resource challenges. We are able to do this because we have a 
world class work force of talented and dedicated professionals 
who are absolutely passionate about what we do.
    However, none of our work is done alone. We appreciate and 
value the support of the Administration, the Congress, and all 
of our partners to succeed in our mission. I am very proud of 
the work we do, however, we can and must revolutionize the 
Corps of Engineers.
    I have been in command of the Corps for over 3 years. I 
travel 3 days every single year, and I have done that for the 
last 3 and a half years. We have to continue to challenge the 
enterprise to revolutionize how we are doing business.
    This does not imply that the Corps is not a world class 
organization; rather, it demands that we anticipate and respond 
to the changing requirements and externalities like all world 
class organizations. We embrace the authorities provided by 
this Committee to focus current mission areas and to serve as a 
guide to implement the Civil Works program with a strategic 
vision, taking pioneering steps to remain relevant and ready 
for the challenges of tomorrow.
    Successful civil works project delivery supports the 
Nation's current and future infrastructure priorities. The 
Corps' credibility is measured on our ability to deliver 
results that are on time, on budget, and of exceptional 
quality. The Corps is taking bold actions to improve 
performance to continue to engineer solutions for the Nation's 
toughest challenges. These actions are realized through 
modernizing the traditional delivery of the annual civil works 
program with innovative tools, streamlining internal processes, 
and exploring alternative financing approaches.
    I want to walk you through the three big initiatives we are 
doing to revolutionize the Corps. The first objective is to 
accelerate project delivery. It focuses on innovative ways to 
deliver high quality outcomes as the Corps' top priority. 
Through looking internally at our organization, we are 
identifying policy and administrative changes that can increase 
the efficiency and the effectiveness of infrastructure 
delivery.
    We believe that risk informed or professional judgment 
decisionmaking should be implemented and documented without 
being studied into numerous time consuming reviews. We also 
seek to incorporate innovative ideas through the life of a 
project as part of the acquisition strategy, design, and 
construction process.
    One new example we are investigating is a multi-port 
dredging concept that would explore innovative ways of 
executing dredging in a logical sequence manner unconstrained 
by more traditional project specific or account specific 
execution. We believe that cost and time savings can be 
achieved through a regional multi-purpose approach implemented 
over a multi-year timeframe.
    Our second big initiative is alternative financing. Fiscal 
responsibility and budgetary constraints demand that we utilize 
innovative approaches that allow for accelerated project 
execution and early realization of benefits with increased 
efficiency and effectiveness by exploring the development of a 
Water Infrastructure Finance and Innovation Act, or WIFIA, loan 
program, as well as seeking public-private partnership 
opportunities. We are also revising metrics and developing 
multi-year capital budget concepts in our budgeting process.
    Finally, our third objective is to improve our permitting 
process. We have adopted the One Federal Decision in 
coordinating our processes to comply with NEPA and other 
environmental laws. Our goal is to simplify the process for 
gaining infrastructure permits while protecting the environment 
in accordance with the law.
    In the regulatory program, we continue to streamline permit 
processes. Where modifications to existing Corps structures are 
concerned, these are 408 permits; we have reduced those as much 
as 50 percent.
    This includes efforts to reduce redundancy, identifying 
alternative processes, and delegating authority for 
decisionmaking to the most practical and appropriate level.
    I would love you to ask me about my flat line budget 
compared to my expanding permitting requirement. Although our 
budget workload has remained relatively steady in the last 7 
years, with more than 80,000 permits a year, the bottom line is 
our budget has decreased in real time inflation with more than 
$25 million.
    So our workload is flat lined, but our budget is going 
down, and my guys can't work permits any faster without having 
additional people to be able to process those in accordance 
with America's expectations.
    Finally, for more than 244 years, the Corps has adapted to 
meet the challenges of the today. Today is no exception. Our 
current efforts to revolutionize the Corps simply represent the 
next chapter in this remarkable journey.
    Thank you, Mr. Chairman and members of the Committee. This 
concludes my statement. I look forward to answering any 
questions you have.
    Senator Barrasso. Thank you very much for your testimony, 
General Semonite.
    Now, Ms. Bertrand.

STATEMENT OF CHARLOTTE BERTRAND, DEPUTY ASSISTANT ADMINISTRATOR 
  FOR POLICY, OFFICE OF WATER, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Ms. Bertrand. Good morning, Chairman Barrasso, Ranking 
Member Carper, and members of the Committee. I am Charlotte 
Bertrand, the Deputy Assistant Administrator for Policy within 
EPA's Office of Water.
    The written testimony provided to you represents joint 
testimony from the Army Corps of Engineers and the 
Environmental Protection Agency regarding the Water Resources 
Development Act. The WRDA provisions EPA administers seek to 
ensure the American public has access to safe, clean, and 
reliable sources of water.
    I understand the members have questions regarding the 
implementation of EPA programs authorized by WRDA, and that I 
was invited here today to answer those questions. I am more 
than happy to answer those, and I thank you for the 
opportunity.
    Senator Barrasso. Well, thank you to all of you for being 
here.
    Let me start with General Semonite.
    The perception persists that Corps projects are taking too 
long to complete. What, if any, legislative steps can we take 
to help you get these projects done faster? And will you commit 
to working with members of this Committee to find ways to build 
projects more quickly, more efficiently, at less expense to the 
taxpayers, while still protecting the environment?
    General Semonite. Chairman, we are absolutely committed to 
trying to speed up timelines.
    You all need to know that the one thing that is absolutely 
non-negotiable in the Corps of Engineers is quality. We have to 
be able to perform.
    You do a great job at giving us those funds. It is our 
absolute commitment to be able to make sure those funds are 
expended the right way.
    But our timelines are too long. So we are looking at a lot 
of different things. A lot of this is, How can we speed to be 
able to get the projects designed? We are doing a lot of 
innovative things there.
    Acquisition processes, we can't be a Corps of Engineers 
that are stuck in 244 years of doing old contracting. So we 
have done a lot of work at bringing new people in, new 
innovative concepts to be able to turn contractors faster.
    I personally think we were taking probably too risk adverse 
an opinion. We will always follow the FAR. We will always do 
the right things. But there are times that we might have put 
too many decimal points on the equation, and we are trying to 
figure out how to streamline.
    So anything that we can do. And right now, General Spellman 
sitting here behind me has over 130 initiatives to be able to 
speed up process. About 20 of those are legislative things that 
we need some help in untying the hands of the Corps to be able 
to do our work better.
    Senator Barrasso. We would appreciate working with you on 
those 20 things that are legislative, that we could actually, 
hopefully, get into this next water infrastructure bill.
    General Semonite. Yes, sir.
    Senator Barrasso. Thank you.
    Mr. Fisher, in our hearing last month, Pat O'Toole, who is 
the president of the Family Farm Alliance, testified about 
additional water storage projects that could provide beneficial 
flood risk management and environmental benefits, while also 
ensuring a more reliable water supply for western communities. 
He stated in his written testimony, he said, ``Adequate water 
supplies for the future require supply enhancement measures.'' 
New and expanded water storage projects, that provide long term 
solutions across the West.
    So will you work with this Committee to develop some of 
these smaller scale water storage projects that will certainly 
help our rural communities in the West?
    Mr. Fisher. Absolutely, Mr. Chairman. Demand on water 
certainly is not decreasing, right? I think we all know that in 
this Committee room. Demand in the West is certainly a priority 
of my boss and the Administration.
    We will work with this Committee. I am sure we have 
existing authorities we can use to tackle some of these 
problems. But if other authorities are needed, we are certainly 
willing to talk those through with this Committee, so that we 
can ensure a reliable water supply in western States, and all 
States, for that matter. Thank you.
    Senator Barrasso. Ms. Bertrand, in Section 5004 of the 
Water Infrastructure Act, we created a grant program for 
qualified non-profits to provide technical assistance to small 
and medium sized wastewater treatment works. This type of 
technical assistance is crucial in rural communities across the 
Nation.
    Could you discuss, if you could, the difficulties that 
these small and rural wastewater treatment systems face in just 
trying to comply with the Clean Water Act and the Safe Drinking 
Water Act? Also, where are you in the implementation of this 
important project?
    Ms. Bertrand. Thank you for the question. Small systems 
have a greater challenge than some of the larger systems in 
infrastructure development, complying with the Clean Water Act, 
complying with the Safe Drinking Water Act. They have a smaller 
rate base.
    So when you look at something like the drinking water 
systems, out of our 50,000 community water systems, 91 percent 
of them serve fewer than 10,000 people. So their rate base is 
smaller, and they need more assistance.
    The tools that we have been provided through WRDA 2014, 
2016, 2018, have improved our ability to help these smaller 
communities.
    The specific provision that you referred to, Section 5004, 
of AWIA, that is one of the provisions that we have not been 
able to implement. We had more than 30 different provisions 
that amended portions of the Safe Drinking Water Act with AWIA. 
But we did not receive appropriations for all of them. So there 
were some that we required some appropriations to move forward 
on.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Again, our thanks to each of you for joining us, for your 
testimony, and now your willingness to respond to some of our 
questions.
    My first question would be to Deputy Assistant Secretary 
Fisher and General Semonite. It involves oversight letters on 
climate change.
    I am one of those people who focuses on root causes of 
problems, not on just the symptoms of problems, but on root 
causes. We spend a lot of time and energy focused on symptoms; 
we don't do nearly enough to focus on the root causes in too 
many instances, right? So that is a preface to what I am about 
to ask.
    In April of this year, the Environment and Public Works 
Committee held a field hearing in Iowa regarding the Corps' 
management of the catastrophic flooding along the Missouri 
River that occurred in March 2019. The Chairman has already 
referred to that. Following that hearing, I sent a letter to 
General Spellman, he may recall, with some questions for the 
record regarding climate change. I only received responses this 
past Monday.
    Again, we sent questions for the record regarding climate 
change, I think following the hearing in March. And we just 
received answers on Monday. I am going to be submitting those 
questions, and I am told the responses to the questions were 
really non-responsive.
    General Semonite, I am going to be submitting these 
questions to you again, as questions for the record. I would 
just ask that you actually respond to the questions we are 
asking this time, not dance around the issue of climate change. 
Just be responsive, please.
    I also sent both of you a letter--this will be to Secretary 
James, and to you, General Semonite--in April 2019, with 14 of 
our colleagues. That letter asked you to address how the Corps 
is planning for and combating extreme weather events attributed 
to climate change.
    It has been nearly 6 months since we sent that letter, and 
despite repeated follow up by members of our staff, we still 
have not yet received a response. We need a response, please.
    And I would just ask, when might my colleagues and I expect 
a response? It has been 6 months.
    General Semonite. To all of the Senators on the Committee, 
we are absolutely committed to being able to support those 
answers in a rapid timeline. My suspense is 17 days to get them 
to my higher levels. We meet that suspense.
    As the Chairman asked questions coming in about How can we 
continue to streamline the bureaucracy, I would defer to Mr. 
Fisher and others, but we will always make our timelines to get 
them in.
    We can talk reports as well. We are committed to get 
reports in on time. But we have to find a better way of getting 
our answers to you, sir.
    Senator Carper. All right, thanks.
    When I was a member of the House of Representatives and 
Governor after that, we would measure the number of letters we 
would receive by maybe the hundreds. We received letters and e-
mails by the thousands every month. We have to try to be 
responsive to our constituents and others who contact us. I 
know you want to as well. Please do.
    Second question, if I could, would be for Charlotte 
Bertrand. It is regarding PFOS and PFOA.
    Ms. Bertrand, during Administrator Wheeler's confirmation 
process, members of this Committee were alarmed to learn that 
EPA was not planning to set an enforceable drinking water 
standard for PFOA and for PFOS. Our concerns were alleviated 
somewhat when EPA had the Office of Water, David Ross sent a 
letter to us, and I am going to quote. He says, ``The EPA 
intends,'' his words, ``The EPA intends.'' Intends what? Well, 
``to set an enforceable drinking water standard for those two 
PFAS chemicals.''
    That was February. And just last month, Mr. Ross seemed to 
back off of his commitment when he told the House 
Transportation and Infrastructure Committee that he would not 
commit to setting a drinking water standard for those two PFAS 
chemicals after all.
    So Mr. Chairman, I would just ask unanimous consent to 
submit both Mr. Ross's February letter and two articles 
regarding his September testimony, if I could, for the record.
    Senator Barrasso. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Carper. And Ms. Bertrand, my colleagues and I don't 
ask a whole lot of yes or no questions. I am going to ask one 
of you this morning. Does EPA intend to set an enforceable 
drinking water standard for PFOS and PFOA as Mr. Ross 
previously committed?
    Ms. Bertrand. So the Safe Drinking Water Act has a set of 
provisions in it that requires us to go through a process. It 
is a legally binding process. We are committed to going through 
that process. We are, right now, anticipating that we are going 
to base our regulatory determination by the end of this year.
    So that is the first step in developing the NCL that you 
are referring to.
    Senator Carper. All right. I am going to ask the same 
question, not right now, I guess, again for the record. I am 
looking for a clear yes or no answer. So just be looking for 
that question for the record, and please respond to it, yes or 
no.
    I think that is my time for right now. I will look forward 
to the next round.
    Thank you.
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I have two 
questions, both of them for General Semonite, and both of them 
kind of on two unrelated subjects that he is very familiar 
with.
    The first one is, I have to explain to people sometimes 
that we are navigable in Oklahoma. They talk about, oh, they 
don't realize that we have can remember taking World War II 
submarine all the way up from Orange, Texas, to Muskogee, 
Oklahoma. That still didn't register to most people what our 
capacity is there.
    But we have a 9-foot channel that we have had for a long 
period of time. I am particularly interested in this, because 
my father-in-law had a lot to do with then Governor Kerr. I 
used to consider it, it may be a boondoggle, but it was our 
boondoggle, and it worked.
    But anyway, we have the 9-foot channel. But if we were--as 
you know, we have been trying for a long period of time to get 
that into a 12-foot channel.
    Now, we are at 90 percent, all the way from the Gulf to 
Oklahoma. Ninety percent, a 12-foot channel. But it is that 
other 10 percent that is the problem. I think to do that, you 
could increase the capacity by about 50 percent, just to get 
that other 10 percent of the whole waterway done.
    So I would like to see if you had anything you could say 
briefly, because I want to have time for my second question, 
and if not, do it for the record. What can we do in Congress, 
what can we do in concert with the State government and all the 
other forces who are trying to line up on this, to accomplish 
this 12-foot channel?
    General Semonite. Senator, we think very highly of that 
particular channel. We would strongly endorse it. As you know, 
it was not in the 2020 budget, so it did not get any funding.
    It needs two things. It needs, obviously, some funds, but 
it also needs a new start. The biggest thing the Committee 
gives us is when we get the additional money above the 
President's budget, you give us work plan money. We have more 
flexibility in work plan money than we actually do in the 
President's budget.
    So this, I think, would continue to compete well, but we 
would have to get both the funds and a new start to be able to 
see that through. But you are right, this is a great 
capability.
    Senator Inhofe. I think together, we can do that.
    General Semonite. Yes, sir.
    Senator Inhofe. Now, let me say something about General 
Semonite that most of you don't know. This guy is a real tiger. 
When you are talking about some of your employees, some of your 
staff, and what your expectations are, they should see you in 
action.
    We had a flood, we have a levee that is called the Sand 
Springs-Tulsa Levee, it was built back in the 1940s. We had a 
really big time flood just last year. I mean, it was 
devastating. I remember going up into our dams and seeing it 
come within 2 feet of my feet down there. And the levee was 
starting to break, but it did hold up.
    Now, this guy, General Semonite, I walked in, and I saw him 
stacking sandbags on the levee. And I thought, this guy 
literally has his finger in the dike on this thing.
    So I just want to tell you what a great job you did there.
    But we also want to do something about that feasibility 
study. You have heard me talk about this for a long time. 
Originally it was going to be 3 years; we had it knocked down 
to 2 years.
    Now, my feeling is, I know that you probably are scheduled 
to leave around April. I would like to have a big celebration 
with you and sign that report prior to that time that you 
leave.
    Now, the question I would have is, If the chief's report 
for it was completed this year, you could include it in your 
budget for fiscal 2021. That is correct, isn't it?
    General Semonite. It is, Senator, and I owe all of you, I 
think right now on my list of chief's reports, I have about 25 
more that I am planning on signing before I leave. And that is 
one of them.
    So we are pushing hard, I told my guys, don't give me 500 
pages if 200 is good enough.
    Senator Inhofe. Where does that rank with the other 24?
    [Laughter.]
    General Semonite. They are all very, very important, sir.
    [Laughter.]
    Senator Inhofe. Thank you for your great work.
    Thank you, Mr. Chairman.
    Senator Barrasso. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman and Ranking 
Member.
    Ms. Bertrand, I was very disheartened when during a House 
committee last month, David Ross, the Assistant Administrator 
for the Office of Water at the EPA, was unable or unwilling to 
commit that the EPA would make a determination to regulate PFAS 
chemicals under the Safe Drinking Water Act by setting a 
maximum contaminant level.
    You may be aware that under the Safe Drinking Water Act, 
there are three criteria that the EPA must consider when 
deciding to move forward with setting a drinking water 
regulation.
    The first criteria is that a contaminant may have adverse 
health effects. The EPA's own website titled Basic Information 
on PFAS states that ``There is evidence that exposure to PFAS 
can lead to adverse human health effects.'' So I think we can 
check the box on that one.
    The second criteria is that the contaminant is known to 
occur or there is substantial likelihood the contaminant will 
occur in public water systems with frequency and levels of 
public health concern. The Environmental Working Group has 
compiled a publicly available map of known PFAS detections in 
49 States, many of which are at levels well above the EPA's 
health advisory level. I think we can check that box, too.
    The third criteria is that in the sole judgment of the 
Administrator, the regulation of the contaminant presents a 
meaningful opportunity for reducing health risks. My question 
for you is this: Why is it taking you so long?
    Ms. Bertrand. So, the Safe Drinking Water Act requires us 
to go through a process. And we are actually getting very close 
to proposing one of the first steps in that process, and that 
is the regulatory determination, where we will be speaking to 
the three items that you just referred to in the Safe Drinking 
Water Act.
    We can't prejudge the outcome of a regulatory process. That 
would make our decision indefensible. So to make those 
defensible, we have to work through each one of those steps and 
follow the law. So that is what we are doing right now.
    Senator Gillibrand. But why is it taking so long? There is 
so much publicly available information already that supports 
conclusions on those three elements.
    Ms. Bertrand. We want to make sure that we get it right. 
And so we are carefully looking at all the information, and we 
have made a commitment in our action plan to do this first step 
by the end of the year.
    Senator Gillibrand. But your first step is just to decide 
whether or not you are going to regulate. That does not sound 
like a hard decision to make.
    Ms. Bertrand. It requires us to carefully look at the 
record; it requires us to look at the data and start to build a 
defense, a defensible record. So we are on track.
    Senator Gillibrand. What are you on track to do?
    Ms. Bertrand. By the end of the year, to have our proposed 
regulatory determination.
    Senator Gillibrand. OK. The EPA's regulatory agenda 
indicates that regulatory determination will be posted by 
December 2019. Has a draft regulatory determination been sent 
to OMB yet?
    Ms. Bertrand. It has not been sent yet. Our team is working 
very hard on getting the final document ready to submit.
    Senator Gillibrand. Mr. Fisher, as you may be aware, 
communities along the shoreline of Lake Ontario have suffered 
back to back severe flooding, due to high water levels in the 
lake. I worked with my colleagues to push for a Great Lakes 
coastal resiliency study to develop a proactive plan for 
protecting communities along the Great Lakes, including Lake 
Ontario, from coastal storms and flooding.
    This is something that is desperately needed in so many 
communities that I represent. The Army Corps Buffalo District 
is ready to go, but the study needs to be funded.
    Will you commit to working with me and the other Great 
Lakes Senators to make this study a priority for the Army 
Corps?
    Mr. Fisher. Yes, we will. Lake Ontario, the Great Lakes in 
general, remain an invaluable resource to this country. The 
Army Corps recognizes that, and we certainly want to work with 
you to reduce flooding and improve those ecosystems there.
    Senator Gillibrand. Thank you.
    Mr. Fisher, the Army Corps has an authorized project to 
restore the ecosystem of the heavily polluted Cano Martin Pena 
in San Juan, Puerto Rico. I visited the community and had the 
opportunity to see firsthand the truly devastating 
environmental impacts that the polluted water has on a very low 
income neighborhood. That was even before Hurricane Maria made 
everything so much worse.
    We have to get this project done. We have requested that 
this project be included in the President's budget or as a new 
start on the Army Corps' annual work plan. But we seem to have 
gotten nowhere.
    From the Administration's perspective, what is currently 
blocking this project from moving forward?
    Mr. Fisher. I don't think there is necessarily anything 
blocking it. I think preliminary preconstruction engineering 
design is scheduled to be complete, I think, later this year if 
not early next.
    The Assistant Secretary of the Army, my boss, has actually 
been to visit that project, has been to meet with sponsors down 
there, and we are certainly willing to look for solutions.
    Senator Gillibrand. Thank you. Can you please brief my 
office on progress and timing as it becomes available?
    Mr. Fisher. Absolutely.
    Senator Gillibrand. Thank you.
    Thank you all.
    Senator Barrasso. Thank you, Senator Gillibrand.
    Senator Braun.
    Senator Braun. Thank you, Mr. Chair, Ranking Member.
    My question would be for Mr. Fisher and Ms. Bertrand.
    Aquatic ecosystems and the restoration and protection of 
them; I know as a landowner that manages many acres of farm and 
timber ground, farming seems to keep at bay a lot of the 
invasives that are out there, because you manage that ground 
every year. You have a clear field, so you can get a good crop.
    It has been amazing to me in what a short period of time 
that--and I will get to water in a moment--forests have been 
infiltrated by so many invasives. Literally a beetle coming 
over on a pallet from China has eliminated ash trees, which 
constitute 8 percent of all hardwood trees. And it has happened 
over 15 years.
    So in some cases, it moves so quickly, you can't even get a 
handle on it. When I look at things like Japanese stilt grass, 
which looks like a normal, native grass, grows in the woods, 
and it completely smothers out regeneration.
    When it comes to waterways, it shares that same 
characteristic with forest ground. You generally can't see all 
the invasives at work. It is hidden. Of course, I know Asian 
carp are in our Indiana waterways. They can jump out of the 
water and hit you in the head.
    So I would like both of you to comment on aquatic 
ecosystems and give me your opinion of what our worst nightmare 
is out there in terms of trying to rein them in, and what the 
progress has been on things like Asian carp, zebra mussels, and 
many of the other things I am probably not even aware of.
    Mr. Fisher, would you start, please?
    Mr. Fisher. Sure. The Corps has multiple missions, aquatic 
ecosystem I would classify is one of the top three right now, 
navigation, flood control, aquatic ecosystem restoration.
    Asian carp in particular has been certainly a nuisance 
problem. The Corps has things like a fish barrier to keep those 
from moving into the Great Lakes, but they are certainly 
monitoring the Ohio River and others there around Indiana. It 
is going to be a lot of monitoring, a lot of preparation to 
make sure we have the proper infrastructure in place to contain 
fish and other invasive species where they--and remove them 
from areas that we don't want them, and contain them.
    Senator Braun. What else other than Asian carp would be on 
your radar?
    Mr. Fisher. Any submerged aquatic vegetation, things like 
this, all around the country. We have harmful algal blooms, 
things like this, pop up in lakes all over the country. And we 
want to make sure that we have the authorities to address 
those.
    Where we don't have the authorities, we certainly want to 
work with this Committee to figure out what might be needed, so 
we can be of assistance in those matters.
    Senator Braun. Ms. Bertrand.
    Ms. Bertrand. Thank you. We also recognize that this is a 
challenging area, and we do have a lot of different activities 
going on related to invasive species, and related to harmful 
algal blooms. I would ask that if I could please give you more 
information for the record, that we can probably give you a 
little bit more detail.
    Senator Braun. Especially on Asian carp, if you could both 
get back with my office, I would like to know whether it is 
being pushed back, whether they are progressing, and a progress 
report. Then maybe each office, give me a report on the next 
two most challenging aquatic invasives, and some idea on 
whether we are making progress or not.
    One other question; I have a little time left. This would 
be for General Semonite.
    I know in my own area of southern Indiana, we have one of 
your projects done back in the 1970s, Patoka Lake, which has 
been a godsend for rural water. Also, seemingly in concert with 
the Corps when it comes to waters of the U.S., and the issue 
that besets farmers, and I know that is something we are 
grappling with in other areas here.
    Where does the Corps weigh in when it comes to issues that 
would be tied in or related to waters of the U.S. where many 
farmers are now confused in terms of what they can and can't do 
in their own ditch management?
    General Semonite. Sir, I will just hit it quickly, and then 
Mr. Fisher or EPA can weigh in. As you know, there was a 
decision put in the Public Register yesterday, on the 22nd of 
October, on repeal of that. It has 60 days, and then that will 
be implemented.
    As far as us, we give technical advice. But when it comes 
to the policy of that, I will defer to Mr. Fisher.
    Mr. Fisher. I would just add that the Army Civil Works 
Office is focused on implementation. The Corps of Engineers is 
tasked with implementing the Clean Water 404 program. We want 
to make sure it is being implemented consistently across the 
country.
    We recognize there are a variety of challenges between 
various geographic regions of the country. But we want to 
ensure consistent implementation going forward.
    Ms. Bertrand. I defer to my colleagues.
    Senator Braun. OK.
    Thank you so much.
    Senator Barrasso. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Lieutenant General Semonite, as we spoke just before this 
meeting began, I do look forward to meeting with you in my 
office. I understand we have a get-together sometime after the 
first of November.
    I also wanted to take this opportunity to sort of thank you 
for your 40 years of service, which includes tours in Bosnia, 
Afghanistan, Iraq, as well as multiple civil works and disaster 
response assignments with the Corps. Thank you for your 
service.
    Mr. Fisher, I would also like to take this opportunity to 
thank you and your team, including Mr. James, and this thanks 
is probably a little bit overdue, for your successful efforts 
to provide the initial fiscal year 2019 funding and budget for 
an additional $3 million in fiscal year 2020 for the Missouri 
River Basin snow pack monitoring system. The capability that 
this provides will enable more precise forecasting and better 
decisionmaking by the Corps' Missouri River water management 
team.
    I do look forward to receiving an implementation plan brief 
from Major General Spellman in just the next few weeks.
    At times I have been tough on the Corps, but I want to 
publicly thank both of you and the 35,000 employees for the 
good job the Corps has done in really managing a very difficult 
year on the Missouri River, in the aftermath of floods this 
past year. It is not done yet, but clearly, the Corps has taken 
a lead role in trying to make improvements and in trying to 
respond in a timely fashion to some real heavy precipitation, 
probably record breaking precipitation in the Missouri River 
Basin.
    My question is, first of all to both of you gentlemen. The 
Corps of Engineers has been grappling with a proposed so called 
Surplus Water Rule for the better part of the last decade. I 
myself don't even agree with how the Corps uses the term 
surplus water. Personally, I think it is offensive, and I think 
a lot of our citizens in the West feel the same as I do. They 
view it as an unlawful taking of what is a constitutionally 
protected right of the States to the natural flows of the river 
systems.
    The Flood Control Act of 1944 highlights the preeminent 
role of States and localities with respect to water rights. 
Surplus water appears undefined in Section 6 of the Flood 
Control Act. In the decades since the passage of the Act, with 
the exception of the previous Administration, the Corps has 
declined to define surplus water.
    Yet in December 2016, the Corps sought comment on a 
proposed Surplus Water Rule. The original deadline for this 
action was February 2017; the comment period was extended. But 
a decision, which was scheduled to be made in August, was 
deferred for 6 months.
    Mr. Fisher and General Semonite, it was never the intention 
of Congress to federalize all of the water in our country's 
major rivers. I am going to ask you, where are we now with this 
proposed rulemaking action, and how will you balance 
responsibilities of the Corps as authorized by Congress with 
the rights and interests of the States?
    Mr. Fisher.
    Mr. Fisher. We certainly don't want to federalize waters, 
as you hinted at just then. Where we are with it right now, we 
are in the federalism process, I am not sure--originally, we 
had done all the gathering of feedback from States and tribes 
around the country. That is where we are getting all the input 
we possibly can.
    You referred to the 6 month extension. When we get to that 
point, hopefully we will be prepared with all the info we have 
heard from States, Governors, tribes, to be able to move 
forward with a decision on that.
    General Semonite. And Senator, on the Corps side, Secretary 
James has delegated to General Spellman the approval of 
reallocation reports and surplus water contracts just in the 
last week or so. So we are right now in the middle of writing 
implementation guidance as to how we are going to do that. And 
we would like to think we can get that done in 60 days.
    There are 10 contracts that have still been out there. Our 
goal is as soon as those implementation instructions are done 
to be able to act on those 10 and get the books clear so we can 
then continue to be much more responsive on supply contracts.
    Senator Rounds. General, can you imagine if we talk about 
the natural flows, is there any possibility that the Corps 
considers the natural flows of the river to belong to anyone 
except those defined by Constitution and western water law? Is 
there any question at all about that?
    Mr. Fisher. No, there is not. Like I said, we are not 
looking for the Federal Government to take control of these 
things. We certainly recognize States' rights.
    Senator Rounds. They clearly recognize the natural flows of 
the river do not belong to the Federal Government, and they 
clearly recognize that they do belong to the States and the 
local entities?
    Mr. Fisher. Yes. There is complex--right, you can put a 
reservoir in, and it changes the natural flow. So we have to 
consider all those sorts of things. But yes, natural flow, 
correct.
    Senator Rounds. Let me just follow this for a second. If 
you have a natural flow of a river, you haven't added anything 
to it. That natural flow is still there, and that is all that 
there is there.
    How do you come up with surplus water? It is part of the 
natural flow. Even if you may have the opportunity to slow down 
its release, it is not surplus. And it clearly belongs to those 
States from day one in this country. And I have yet to figure 
out why in the world it has taken so long for the Corps to 
figure that out.
    I want you to be aware that this is one that is really 
important to the western States. We have exactly the same 
constitutional rights that were granted to the original 13 
States. And this is one that needs to be repaired and fixed and 
dealt with as soon as possible. I don't understand any reason 
why it has taken this long to get this far.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Rounds.
    Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    First off, I would like to say that I am very sorry to 
learn that Assistant Secretary James is not with us today. I 
want to thank Mr. Fisher for filling in. And I hope that we 
will get to see Mr. James soon. I hope he feels better soon as 
well.
    General Semonite, thank you for being here. It is good to 
see you again.
    President Trump's consistent destruction of ethical norms 
and clear disregard for our Constitution and laws was on full 
display last week when he awarded himself a no-bid contract to 
host a G7 Summit at one of his properties. Thankfully, 
bipartisan pushback from Democrats and Republicans forced the 
President to retreat from this appalling proposal within 48 
hours of its announcement.
    Unfortunately, this is only the latest bizarre and 
troubling episode of President Trump attempting to steer 
Federal contracts outside of the official process, and 
potentially outside of the law, to benefit himself, his 
friends, or his allies. In May, the Washington Post reported 
that President Trump directed officials to fast track billions 
of dollars of construction contracts, seize private land, and 
disregard environmental rules in order to construct his border 
wall ahead of the 2020 elections.
    In some cases, when staff suggested that his orders were 
unlawful or unworkable, the President reportedly dangled 
pardons for anyone willing to break the law on his behalf. As 
far as I can tell, the White House still hasn't denied these 
reports. They merely tried to claim that the President was 
actually joking, or quickly changed the subject.
    General Semonite, given my deep respect for you and the 
Corps of Engineers, it pains me to ask you these questions. But 
given several press reports outlining the President's efforts 
to influence Army Corps contracting decisions, I would like to 
clarify your views on proper Federal procurement rules.
    As a general rule, do you believe full and open 
competition, free of political influence, is critical to 
protecting taxpayers and the Government, while making sure that 
the best solution is advanced?
    General Semonite. Absolutely, Senator.
    Senator Duckworth. Thank you. Have you ever personally 
involved yourself in an Army Corps contracting decision to 
overrule the source selection authority and steer a contract 
award to a company you personally favor?
    General Semonite. I do not get involved in contract 
actions. I have an unbelievably world class team, and I make 
sure that I stay out of that. We do everything exactly in 
accordance with the FAR. And as this Committee knows, for 10 
years, we have had clean audits on every single thing we do.
    Senator Duckworth. I would expect no less.
    If you or your staff are ever pressured by the President or 
anyone speaking on behalf of the President to violate a law, a 
regulation, rule, or constitutional protection, will you 
immediately notify this Committee?
    General Semonite. Ma'am, we are apolitical. I tell my guys, 
what we do, we get our taskings from a higher authority, we are 
concrete and steel. We start at one place; we end at the other 
place. I stay out of why and how. We mainly worry about what we 
are building and to get it done in accordance with the law.
    Senator Duckworth. Thank you, General. That is very 
reassuring.
    Mr. Chairman, I ask for unanimous consent to include three 
press reports about these issues.
    Senator Barrasso. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Duckworth. Thank you.
    Mr. Fisher, as ASA James and I have discussed in the past--
and I do want to thank him for being so very approachable and 
accessible--efficient navigation on our inland system is key to 
our global economic competitiveness. I am sure you agree.
    Every time a lock faces an unscheduled closure, freight 
traffic shifts to roadways and rail, costs rise for shippers, 
and already razor thin margins for farmers and manufacturers 
are further eroded. Despite the critical nature of our inland 
system, it always seems to take a backseat to other 
infrastructure efforts.
    Highway projects, for example, generally enjoy an 80-20 
cost share between Federal and non-Federal sponsors. Airport 
construction projects receive 75-25 cost share, as do harbor 
construction projects. Yet lock and dam projects still rely on 
an outdated 50-50 cost share, which exacerbates the $8 billion 
construction backlog.
    Mr. Fisher, if this Committee is able to secure an increase 
in the Federal cost share for inland projects, does the Corps 
have enough projects in the pipeline to accommodate the cost 
share change?
    Mr. Fisher. We do. I think the overall backlog, beyond 
inland waters, is about $100 billion. I don't know what the 
exact number on inland water is, but it is significant.
    That trust fund you referred to is typically depleted each 
appropriation cycle, so yes, there would be projects to get at 
if this Committee and this Senate and Congress were to adjust 
the cost share.
    Senator Duckworth. Thank you.
    General, would you agree with Mr. Fisher?
    General Semonite. I do. However, if you don't increase the 
top line, and then you fence 75 percent of the current budget, 
you are basically reducing our operating capital by about 25 
percent. So therefore, that means things are not going to get 
done.
    So if we change that cost share, I would want to make sure 
that we identify to the Committee what is the risk you are 
incurring if the regular top line is the same.
    Senator Duckworth. I think that is a great note of caution, 
and we will take it into consideration as we work on the 
change. Thank you.
    I want to thank you for Secretary James' August 16th letter 
that reinforced his commitment to completing a review of the 
Corps' Urban Flooding Policies as required by language in WRDA. 
His letter states that he hopes to have the report completed by 
the end of the year. Is that still the plan?
    Mr. Fisher. I am sorry, the report due at the end of the 
year?
    Senator Duckworth. Yes.
    Mr. Fisher. Yes, that report, any reports, I realize we can 
be quicker on these things, but yes, we are shooting for 
reports at the end of the year as quickly as we can, and we 
will try to expedite these for the Committee.
    Senator Duckworth. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Duckworth.
    Senator Wicker.
    Senator Wicker. Thank you very much, Mr. Fisher, and 
General Semonite. I want to ask about the Bonnet Carre Spillway 
on the Mississippi River.
    According to NOAA, conditions from July 2018 to June 2019 
set the 12 month precipitation record in the United States, a 
historically wet year. The U.S. Army Corps of Engineers opens 
the Bonnet Carre Spillway to ensure that no more than 1.25 
million cubic feet per second of the Mississippi River passes 
New Orleans. This is based on science, engineering, and 
forecast.
    This year's openings lasted for an unprecedented 123 days. 
It just devastated the Mississippi Sound. Because what happens 
is, the Bonnet Carre Spillway empties out into Lake 
Pontchartrain, which eventually gets into the Mississippi Sound 
with a bunch of freshwater and destroys our saltwater shrimp 
and oysters.
    I have submitted a WRDA request for language that would 
authorize a comprehensive study of water management techniques, 
structures, and features within the RNT, and to look at this. 
We certainly want to do what we can on Mississippi River 
flooding. But I just don't think it has to be done at the 
expense of our small businesspeople and residents who depend on 
the saltwater in the Mississippi Sound.
    General, if you could comment on that, and then Mr. Fisher.
    General Semonite. Senator, you know this is where we have 
eight authorized purposes. Sometimes those compete against each 
other. As much as we care about the environment, the habitat, 
the economy, there is absolutely no doubt in our mind the most 
important thing is life safety. There was some confusion in the 
Missouri River when our guys would say, We have eight 
authorized purposes, but it is always to be able to take care 
of people and their property first.
    So the challenge here is that if you didn't release that 
much water, could we have found some way of absorbing those 
impacts if you didn't have that water going downstream? We 
would welcome a study. Anything we can do to try to do this 
better, we want to do.
    But the last thing we want to do is hold water back and 
kill a human when we are trying to preserve the environment. 
The environment is important. But it is that balance that is 
hard to be able to manage.
    Senator Wicker. Well, I am glad you welcome the study. It 
is not just the environment, although the environment is very 
important. It is the livelihood of the people who depend on the 
saltwater in the Mississippi Sound.
    Mr. Fisher, do you have anything to add?
    Mr. Fisher. Senator, I am not sure I do. I think life, 
property, environment, economy, those local businesses, are 
certainly important. When you have competing water resource 
issues in Bonnet Carre or other spillways, there are tough 
decisions.
    We look forward to working with this Committee to ensure 
that we are operating those spillways in an appropriate manner 
and protecting everything that they are authorized for.
    Senator Wicker. I am glad that the General would welcome 
the study.
    I have also, with regard to permitting and economic 
development, I have submitted, Mr. Chairman, a provision to 
WRDA to our communities to work on the front end with the Army 
Corps to review sites in advance in order to recruit projects 
to locations that require wetland mitigation. I have found that 
certain districts interpret the current law differently across 
the Nation.
    Section 404 of the Clean Water Act regulates the discharge 
of dredged fill material into waters, including wetlands. We 
want to mitigate, but we would like an opportunity to do this 
in the most efficient way, so that when a community has an 
opportunity to act quickly to engage in job creation, they can 
do so.
    Would you agree that local communities should be able to 
work collaboratively with the Corps and other resource agencies 
when engaged in responsible economic development, and that 
working collaboratively on the front end could allow the Corps 
to be a stronger partner with local communities around the 
country in job creation?
    General Semonite. Senator, certainly. Anything we can do to 
reduce that overall time. There is a lot of things on the front 
end both the locals can do, but also the other resource 
agencies, the interagency fish and wildlife and other 
capabilities.
    The other thing that you talked about, consistency, we want 
to delegate and empower. We want to push things down. But that 
means you have a hard time making sure everybody does it the 
same.
    General Spellman and I had a meeting with our permitting 
people yesterday to be able to make sure that we have systems 
in place to be as consistent as possible. If we find a district 
that is not consistent, call me personally, and I will make 
sure we get that fixed.
    Senator Wicker. Mr. Fisher.
    Mr. Fisher. We have the Clean Water Act; we have an eye 
toward implementation. And Mr. James certainly, and the 
Administration, certainly want districts to be reviewing the 
same science, using the same documents and making decisions 
consistent across the Nation.
    Senator Wicker. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Carper [presiding]. Senator Capito, the Chairman's 
list has you next, followed by Senator Ernst.
    Senator Capito. Thank you.
    I want to thank you all for your presentation, and 
Lieutenant General, thank you for your service, and thank you 
for the great service that the Corps provides.
    I was just out at the Robert C. Byrd Locks to watch the 
dewatering of the locks with our Colonel Evers in our 
Huntington District, who does a great job working with our 
offices. I will say this, when you peer down into the chamber, 
you realize why these projects are so expensive, because it is 
a massive undertaking to repair those locks and give them the 
lifetime that they need through the next several years. So I am 
very appreciative of that.
    I do have a bit of--the last time that everyone was here in 
March, we submitted some questions that we have yet to have 
answers responded to. I heard your first response to Senator 
Carper, but I wanted to put that one out on the table as well.
    General Semonite. [Remarks off microphone.]
    Senator Capito. Thank you.
    Ms. Bertrand, I am working with Senator Cardin on an issue 
that I think is important to everybody, and that is the 
leakages that we have with all the water out of all the water 
systems we have.
    We had a report in our newspaper just recently that said 
that a small community was having trouble with its water 
system, and they estimated that 60 percent of the water that is 
going out through these pipes is getting lost before it even 
gets to the customer.
    So we are looking at a way to help our small 
infrastructure, our public service districts, to be able to 
answer this question, and we are introducing Assuring Quality 
Water Infrastructure Act, where the EPA is going to be playing 
a role of--because you are now supposed to be providing, and 
you talked about this a little bit, educational materials on 
asset management.
    But how do you think small water systems are addressing the 
issue of asset management? Is your message getting received?
    Obviously, they don't have the money to repair these, or 
know how to do it or determine the leaks. How are we going to 
be able to help small water systems with this?
    Ms. Bertrand. Thank you for the question. We share your 
interest in this asset management. It is just a critical part 
of planning for infrastructure upgrades, understanding when you 
may need funding, how to obtain the funding.
    In AWIA, we have been through, what AWIA authorized us to 
do, we have been providing more information on asset 
management. And we are requiring States to start to incorporate 
that into some of their planning.
    We would be happy to work with you on proposals and provide 
technical assistance on anything that you put forward in this 
area.
    Senator Capito. There have been numerous reports from other 
States with a water shortage. If we have leakages everywhere 
else, we are really wasting water in a lot of States because of 
older systems that I think you can be of great assistance here.
    The other thing I would like to say, too, since this is a 
bipartisan issue, that I have worked with Senator Cardin on, 
and that is the PFOS and PFOA drinking water level. You said 
twice in response to two questions that you are trying to get 
your regulatory determination. I get that, but that sounds like 
such bureaucratic stuff, when we realize that over 3 years ago, 
the EPA came down hard on two of our communities, telling us 
that the level of PFOA and PFOS in our water systems was higher 
than what would be considered healthy, without much warning and 
without much assistance at the same time.
    So I just want to register to you the frustrations with the 
timelines, the kind of what I perceive to be--and I think we 
all do--is a sort of a pushback from the EPA trying to slow the 
process. I understand science, and we want to get the science 
right, and all of that.
    But the determination here has already been determined by 
EPA, that these are chemicals that we need to watch as they are 
going into our water system, for a lot of different reasons. So 
I am going to add my voice to the level of concern on this 
particular issue.
    So I am going to ask Mr. Fisher a quick question, if I can.
    We have some--in one of the bills, it is water 
infrastructure where the Corps helps with money with ARC and 
EDA to help get our water systems its environmental 
infrastructure authorities. In our region--the Appalachian 
region, specifically West Virginia--we are running up against 
our authorization level in terms of funding.
    We are having issues trying to figure out how to bump those 
levels up. We understand it has to go through--and you will 
have to tell me this--the 7001 process. I would like to enlist 
your help in trying to get us to meet the challenge of lifting 
these authorization levels as they meet the challenges of the 
very expensive replacement of the energy infrastructure, or 
infrastructure, the water infrastructure that we have in our 
States.
    Mr. Fisher. Yes, certainly, if the communities you are 
working with are pursuing environmental infrastructure 
programs, and they need assistance filling out their annual 
7001 request, we certainly can step up, and the Corps and our 
office, the Army Civil Works, can help with that.
    Senator Capito. But you see what I am saying here; we had a 
certain authorization level through--I mean, I know it is 
incumbent upon us to raise those levels. We are having some 
issues with earmarks and those kinds of terminologies. So I 
would really like to work with you all to figure out how to do 
it. Because you have been really, really critical to some small 
projects in your world, but very large projects for 
communities.
    Mr. Fisher. We understand. We are certainly willing to work 
with you.
    Senator Capito. Thank you so much.
    Senator Carper. Senator Ernst, I indicated that you would 
be next, but Senator Markey has come back, so he is next, and 
you are right after him, and then Senator Cramer.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much. Earlier 
this month, the Army Corps released a draft report of the 
Sagamore and Bourne bridges on Cape Cod. These two bridges are 
vitally important. They connect the nearly 250,000 residents of 
the Cape with the rest of Massachusetts, and the tourism 
community is obviously very important.
    Unfortunately, these two bridges are over 80 years old, and 
as the Army Corps just concluded in its draft report, 
structurally deficient and in desperate need of replacement.
    Replacing the bridges is one of the most critical 
infrastructure projects in Massachusetts. That is why I led my 
colleagues in Massachusetts to send a letter to you, General, 
last week, urging the Army Corps to include all necessary 
funding for the Cape Cod bridges in the Corps work plan for 
fiscal year 2020.
    Although we must keep working to identify long term 
solutions for these bridges, an initial allocation of money to 
get this project moving as soon as possible is important, 
including startup funds for Cape Cod in the next Army Corps 
work plan would represent a significant down payment and a 
responsible long term investment. So thank you, General, and 
thank you for all the work you do for our country as well. Much 
appreciated.
    So I would just like to take this opportunity to urge you 
again to include all necessary funding for the Cape Cod bridges 
in the Corps' 2020 budget and to ask for your response.
    General Semonite. Senator, I have been to those bridges 
three times personally. I have talked to the Governor 
personally about this. We need to look at an out of the box 
solution here.
    Before you came in, the Chairman had said right up front, 
there are times where bureaucratic rules don't allow certain 
projects of very, very important value to be able to meet into 
the budget. These are ones that can't go through a benefit-cost 
ratio. It is going to end up having a cost, and very easily 
might not be able to qualify.
    These are going to be obsolete by 2025. This is something 
of a strategic value. It is going to fall into the same 
category of the Soo Locks, where it has to have some additional 
capability.
    So I would encourage not only for this particular project, 
but for other projects that this Committee has that are so 
important to this Nation, and they are a single point of 
failure, that we have to find another way of getting some of 
these projects approved. You have our commitment in the work 
plan and just from an engineering perspective to fight to get 
these done.
    Senator Markey. So you will invest the necessary startup 
funds for this project in the plan?
    General Semonite. Unfortunately, my work plan doesn't 
necessarily keep its integrity all the way through. But you 
have my commitment, and I think it will compete very, very well 
with my guys putting our work plan together.
    Senator Markey. OK, thank you. I think that is absolutely 
imperative.
    We, in the aftermath of Hurricane Sandy, also had to look 
at what the potential risk was up in the northeast. I am 
pleased that Massachusetts has a State specific study, but that 
study is unfortunately incomplete. In particular, the city of 
Boston has not been studied by the Army Corps despite its 
significant vulnerability to coastal flooding and sea level 
rise.
    General, do you agree that Boston faces major climate risks 
to its infrastructure, including flooding and sea level rise?
    General Semonite. It definitely does. Unfortunately, the 
rules on this particular study--it is called the North Atlantic 
Comprehensive Study--did not allow Boston to be included. So we 
want to work with your staff to figure out, How do we continue 
to be able to address the Boston challenges? But it might be 
through some other venue.
    Senator Markey. So you will commit to me to working to find 
a way to study climate resilience and infrastructure in Boston?
    General Semonite. Without a doubt.
    Senator Markey. Beautiful. That is very, very important.
    And again, I appreciate your work in the Army Corps.
    Secretary James came and visited with me the bridges on 
Cape Cod and Boston Harbor. He came out on a boat with me to 
take a look at it as well. And you, I know, are on this and 
understand it fully.
    Every American should have access to safe, healthy drinking 
water. In too many communities across the country, we are 
failing to deliver on that promise. High levels of lead, 
copper, pesticides, and other invisible contaminants are 
actively hurting children and families. We can't ignore this 
crisis or sweep it under the rug.
    That is why I have introduced the Clear Drinking Water Act. 
I urge this Committee to include my legislation in any WRDA 
package as a part of this WRDA reauthorization. We must take 
action to address drinking water issues.
    I urge all members to look at my proposal. I think it deals 
with every region's problems comprehensively. I hope that we 
can, once again, on this Committee serve as a model that we 
work together on a bipartisan basis to pragmatically solve 
problems.
    So I thank you both, Mr. Chairman and Ranking Member 
Carper.
    Senator Barrasso [presiding]. Thank you very much.
    Senator Ernst.
    Senator Ernst. Thank you.
    General Semonite, I want to thank you very, very much. I 
appreciated the time that you took this last couple of weeks 
while Congress was back in their home States to visit us in 
Cedar Rapids at their first federally funded portion of their 
flood control system. It meant a lot to have you there, working 
with you and others on your team to find a path forward for the 
citizens of Cedar Rapids. They fought very hard for that 
project, and we are very thankful for that.
    So kudos to you and your team.
    And General Spellman, you joined us earlier this year in 
April in western Iowa, in Glenwood, Mills County, for a very 
healthy discussion and field hearing on the flooding that we 
have seen throughout the western part of our State.
    I would like to talk a little bit about that with you, 
General Semonite. We have had very devastating flooding in 
western Iowa. A number of those communities are still under 
water. If you could this morning, could you provide us with an 
update on the progress that the Corps is making with repairing 
and rebuilding a number of those levees in southwest Iowa?
    General Semonite. Yes, ma'am. So as you know, this was 
probably the second wettest year in the last 124 years. We 
really have broken this repair down into three big phases. We 
had 212 levee breaches, 13 of them repaired as of today. We 
have on our second phase the ability to be able to go back and 
to be able to restore those levees. We have 182 different 
requests.
    We think we have that under control. It really goes back to 
the longer plan of how do you continue to recommend a study for 
the flood protection, to be able to make that happen. We are 
absolutely committed to be able to restore that back and to be 
able to get the level of safety back.
    If you don't mind, I just would want to go back to your 
thing on Cedar Rapids. It probably also affects Senator Cramer. 
As you know better than anybody in this room, that would never 
have seen the light of day had we continued to be able to have 
a benefit-cost ratio of 2.5 where people are either losing 
their lives or they are losing their property. We are having 
the same thing in Fargo-Moorhead.
    We as a committee and we as a Federal Government have to 
find a way of somehow getting those projects--the supplemental 
was the savior here. It was able to get your project approved. 
But the bottom line is, we still have communities that are 
affected with an arbitrary metric that we have to be able to 
figure out a way around.
    Senator Ernst. Yes, absolutely, I agree completely with 
that. The benefit to cost ratio is very detrimental to those of 
us that live in rural communities. It is not that our lives or 
property are less valuable to us than somebody living along the 
coastlines, where they may have million-dollar homes and so 
forth. But certainly, we do need to make sure that that is 
adjusted, that it will work better for everybody across the 
United States.
    Just as a follow up for the first question, what we have 
heard is that there will only be minimal levels of protection 
in place for a portion of southwest Iowa before the start of 
next year's flood season. What plans are being worked on, maybe 
in coordination with FEMA or other agencies, to make sure that 
the communities along the miles of these compromised levees 
will have adequate protection come next spring?
    General Semonite. I think we probably need to lay this out 
for you and show you exactly what the plan is. Obviously, we 
can really only do the response, that is what is under our 
control.
    But also, Congress has been very, very good in the 
supplementals. The $17.4 billion that has gone in the ground, a 
lot of this could very easily be covered in the next 
supplemental that is coming.
    So that is where you go from really that short term 
recovery into a much, much longer plan to be able to give you 
the level of resilience you need out in those communities.
    But if you want, I will have my staff come and lay that out 
for you with what is currently going in the ground, and where 
do we see future tasks that could be done, and what is the 
funding mechanism to make that happen.
    Senator Ernst. Right. That would be fantastic.
    Both, General, for you and Mr. Fisher, you are both 
familiar with the situation, I hope, that we have in Hamburg, 
Iowa. General Spellman is nodding his head.
    It is a really difficult situation. As we begin working on 
this next WRDA, do you have any recommendations or policy 
changes that could help some of these small communities like 
Hamburg improve their flood protection infrastructure, or 
potentially continue using temporary structures?
    Mr. Fisher. From a policy perspective, I think we certainly 
want to work with you, Senator, and this Committee on what 
authorizations and what things we might need to address 
problems like that. I will let the General address what is 
currently being done and what is being done here in the near 
term.
    General Semonite. I think on the tactical side, the State 
was very good. They stepped up with $6.3 million. We got the 
design all done; the city still needs $3 million. So we are at 
a little bit of challenge. Whatever we can do, we will get the 
Federal side covered.
    I don't know if we initially have a solution there. Maybe 
we can go back and redesign somehow to get it at a cheaper 
cost. But we are all in to try and figure out how we can fix 
Ditch Six Levee in Hamburg.
    Senator Ernst. Thank you, yes. God bless Mayor Crain and 
all the citizens there in Hamburg. It has been a really 
challenging number of decades, we will put it like that, for 
that community. Because it is a rural, very, very small 
community, they are economically challenged when it comes to 
putting up those types of dollars as well.
    Thank you, Mr. Chair, I really appreciate it.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Cramer.
    Senator Cramer. Thank you, Mr. Chairman. Thank you all for 
your service and for being here. Right up front, General 
Semonite, I want to express my gratitude for both your 
understanding and commitment to this benefit to cost ratio 
issue that has prevented really important jobs from getting 
done. I look forward to working with you and my colleagues on 
that issue. Thank you.
    I unfortunately was presiding when you had your discussion 
with Senator Rounds on the Surplus Water Rule. So I am going to 
dig into that a little bit for you.
    As you know, last month, I sent a bipartisan letter that 
was signed by 18 of my colleagues to OMB, hoping to halt the 
proposed rulemaking regarding the use of Corps reservoir 
projects for domestic, municipal, and industrial water supply, 
otherwise known as the Water Supply Rule.
    Similar letters were sent, as you know, to the Corps from 
the Western Governors Association, Western Attorneys General, 
National Water Supply Association, Western States Water 
Council, and National Water Resources Association, all in 
opposition to the rule.
    Not only in my view was the rule crafted poorly with 
without adequate State and tribal consultation, which in my 
view is just the root of the problem, it is also based, I 
think, on a wrong premise that somehow the Corps has management 
control of the water that should remain delegated to the 
States.
    I want to publicly thank all of my colleagues who signed 
the letter. As Mark Twain famously said, or is believed to have 
said, whiskey is for drinking; water is for fighting. I think 
we have started a brawl, if this is any indication.
    I would like first of all, Mr. Chairman, to put into the 
record all of these letters that I just referenced.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cramer. Mr. Fisher, as I am sure you know, I had to 
bring this issue all the way to the Secretary of the Army, 
Secretary McCarthy, when he came before me on the Armed 
Services Committee as a nominee. I have no doubt this was not 
his highest priority, and I appreciate that both his and your, 
and your agencies', responsiveness when you sent the memo 
putting the Water Supply Rule on hold for at least 6 months to 
``better integrate input from stakeholders.'' I appreciate 
that.
    The fact that I had to take it to the Secretary himself and 
that all of these organizations had to write is concerning to 
me. But I want to make the point clear that this is part of the 
problem. For nearly 3 years, my colleagues, Governors, 
stakeholders have all made their opposition clear. Yet it 
seemed to fall on deaf ears. Whether the rule or the host of 
other issues brought up to date, it is clear the Corps is in 
need of more effective oversight.
    Mr. Fisher, I am going to reiterate my thanks for the 6 
month delay. It was definitely a win for my constituents and 
for your constituents, and moving forward, I hope it is even 
more important that we get this right, not just the process, 
but the product right in the long run.
    To both of you, General Semonite and Mr. Fisher, I have 
been very vocal in my support of policies that promote and 
protect federalism, as you know. The proposed Water Supply Rule 
would interfere with State laws and regulations governing the 
management allocation and protection of water resources. I want 
to get very specific here. In both the Flood Control Act of 
1944 and the Water Supply Act of 1958, Congress made it clear 
the Corps was to defer to State water law.
    Specifically, Section 1 of the Flood Control Act of 1944 
states, ``It is hereby declared to be the policy of the 
Congress to recognize the interests and rights of the States in 
determining the development of the watersheds within their 
borders, and likewise their interests and rights in water 
utilization.'' This was later affirmed by the U.S. Supreme 
Court.
    So with that in mind, I am going to ask just a few 
fundamental questions as time allows to General Semonite and 
Mr. Fisher.
    Do you agree with the Supreme Court that any water supply 
proposal you submit must defer to State water laws?
    Mr. Fisher. Yes, we do.
    General Semonite. We agree, sir.
    Senator Cramer. Thank you. Is it your opinion the current 
one size fits all proposal that you have on hold adequately 
defers to State water law?
    Mr. Fisher. Yes.
    Senator Cramer. OK. A few weeks ago, I was able to host EPA 
Administrator Wheeler in North Dakota, where we discussed both 
the ACE and WOTUS rules, both of which respect State 
sovereignty. Now, this has been a high priority of the Trump 
administration, cooperative federalism.
    Do you believe that this proposal is in line with the 
President's stated policies of cooperative federalism as it is?
    Mr. Fisher. You asked the previous question about the one 
size fits all policy; I think I said yes. No would have been 
the appropriate answer there.
    Senator Cramer. I appreciate that.
    Mr. Fisher. One size fits all is not good for any area, 
when you have the geography and topography around the country, 
that is difficult.
    I am sorry; your follow up question was about the Water of 
the United States rulemaking?
    Senator Cramer. Just the commitment of the Trump 
administration to cooperative federalism.
    Mr. Fisher. Yes.
    Senator Cramer. Do you think that this rule as it is 
adheres to that priority of this Administration?
    Mr. Fisher. So the letters you just entered for the record 
were a big part of the reason our office did a 6 month delay. 
We want to make sure that we are properly conducting a 
federalism process on this. We want to hear from all States, 
all stakeholders involved, and make sure their input is 
considered in this. When we get to the end of a 6 month period, 
a proper decision can be made at that time.
    Senator Cramer. My time is up, so I will submit some 
further questions for the record.
    Senator Barrasso. Thank you, Senator.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    I appreciate the witnesses being here today. You guys do 
really, really important work for the country, certainly for my 
State.
    Secretary Fisher, General Semonite, one issue I just wanted 
to highlight is on the permitting process as it continues going 
forward on the Pebble Mine. I want to make sure--there is some 
talk that that has been fast tracked. I don't think that is the 
kind of project that we should be fast tracking at all.
    I also think it is critical that science, not politics, 
drives the Army Corps' and the EPA's decisionmaking. I have 
been encouraging all your agencies to not just hear directly 
from Alaskans on this here, but to get out into Alaska, get out 
to the region, Bristol Bay. Some did this summer.
    And as I am sure you saw, the EPA and the Department of 
Interior recently submitted comments to the Corps' draft EIS. 
Many of their comments were highly critical. EPA submitted 
permits, almost 200 pages. The Department of Interior asked for 
a supplemental EIS.
    We think certainly the burden is now on Pebble and the 
court to substantially address these concerns based on science 
as required by Federal law. This is a high bar, as I repeatedly 
said, we can't trade one resource for another in the region. I 
just want to make sure that you can confirm to me that it is 
science and data--not politics--that drive decisionmaking going 
forward.
    Mr. Fisher. Yes, Senator, certainly from a policy level, we 
want a science based approach. There has been no talk of fast 
tracking anything. We want the Alaska district to go through 
their normal process and do all the technical work to make 
appropriate decisions.
    I will let the General discuss current status.
    Senator Sullivan. That is all right, I want to get to a 
couple--I just want to get your commitment on that.
    Mr. Fisher. OK.
    Senator Sullivan. General, I want to turn now to the Arctic 
Port. As you know, and Secretary Fisher, this has been a huge 
frustration of mine, my constituents, whether Nome or other 
parts of western Alaska. I put a hold on Assistant Secretary 
James's confirmation because of this issue, because, look, I 
love the Corps of Engineers. You guys like to build stuff, but 
you can be way too bureaucratic.
    And I am concerned that once again, once again--it is 
unbelievable, to be honest--we are experiencing bureaucratic 
delays at the headquarters over this Port of Nome study. It is 
outrageous.
    And General, you and I have had numerous discussions about 
this. This is economics, this is national security for the 
United States of America. If you haven't noticed, the Russians 
and Chinese are all over the Arctic, and we don't have one 
damned port where a Navy ship, an icebreaker, can pull up, 
anywhere near our strategic interests. Every time we try to get 
it moving, delay, delay, delay.
    So my understanding is now another 8 month delay, which I 
just find remarkable. This is the issue that I talked to the 
Assistant Secretary about and put a hold on his confirmation 
on.
    So I need to get a commitment from all of you that you are 
going to work as diligently as possible to meet the deadline of 
no later than the spring of 2020, so we can have this in the 
WRDA bill that we are already working on. Can I get this 
commitment?
    And General, no offense, but I have tried to get this 
commitment from you and many others, including the Assistant 
Secretary. Secretary Fisher, I would like your commitment.
    It is a huge source of frustration. It is not just Alaska. 
The fact that we don't have a deepwater port that can even 
handle an icebreaker or a destroyer in this part of America is 
really detrimental to our national security.
    Can I get another commitment, another commitment from all 
of you? I am kind of tired of getting commitments, because it 
is not really working.
    General.
    General Semonite. Sir, I don't know exactly the reason for 
this. So I commit to you to find out. I don't know what the 
reasons are. And I will come over and personally see you and 
tell you what the timelines are.
    Senator Sullivan. I want you to personally see me, and 
commit to going out to Nome and that region of America to see 
how important this is.
    General Semonite. Sir, you and I have met two or three 
times. I am very aware of the urgency of this as well as the 
criticality of this. I am not tracking the particular 
objections.
    Senator Sullivan. Another 8 month delay is what my team has 
told me.
    General Semonite. I will find out and come see you, sir.
    Senator Sullivan. Look, the Secretary of the Navy, all the 
leadership in the military are starting to recognize how 
important this is to our country.
    Let me just make one other comment on this. I want to 
submit for the record, Mr. Chairman, a letter from the Alaska 
Marine Pilots, who have looked at some of the different 
alternatives that are being looked at by the Corps. They 
mention that one of the alternatives is too small for what we 
have all agreed to needs to be a large, deep draft port for 
deep draft vessels to safely navigate.
    So again, we are going through all this, I want to make 
sure that once we do get it designed that it achieves the goal 
that everybody agrees upon.
    So again, if you can take a look at this, General. And then 
finally, can I get your commitment to take a look at this?
    General Semonite. Sir, we may have a disconnect. My guys 
said original completion was February 2021, and now we are 
going to October 2020. So I see this going to the left by 4 
months. So I need to come over, and either come over, exactly 
right.
    Senator Sullivan. Look, with all due respect, the track 
record of the Corps on this has been abysmal. That is a fact. 
We are like 4 years delaying right now.
    Administrator Bertrand, just very quickly, clean water, 
clean sewers; as Senator Markey mentioned his aging 
infrastructure. You know my State has communities with no 
infrastructure. Thirty communities who don't have any water or 
sewer at all. American citizens, some of the most patriotic 
Americans in the country. Because they all serve in the U.S. 
military.
    So I just want to get your commitment to continue working 
with this Committee, my office, on trying to address what is a 
national shame, I think, that we have American citizens that 
live like they do in third world countries with no flush 
toilets and water and sewer.
    The Administrator is very aware of this, he has been great 
on it. But if I can get your commitment to work with me on 
that.
    Ms. Bertrand. You have my commitment to continue to work 
with you.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Sullivan.
    Senator Merkley.
    Senator Merkley. Thank you all very much.
    Mr. Fisher, I want to start by thanking the Corps for its 
prompt response and very open communication regarding the 
recent shutdown of the navigation locks on Bonneville Dam.
    The Columbia River system is the largest system for 
exporting barley and for wheat, second largest outlet for corn. 
And when we heard the lock had this major problem, we were 
terrified that it would be a long shutdown.
    I must say, often projects go awry and take much longer 
than expected. But in this case, everything went incredibly 
smoothly. It wasn't like this was something that had been done 
time and time again. So congratulations on both the public 
engagement on it and the actual engineering and repair that 
happened with light speed. So well done.
    In fact, you all did such a good job, I thought I would 
invite you to come and exercise, put your expertise to work on 
the Willamette Falls Locks, which have been in disrepair 
forever and ever and ever. The community would love to have 
them fixed.
    I don't think they are in your responsibility. But I am 
just saying, maybe some additional practice, because you know 
how to do it so well.
    Lieutenant General Semonite, thank you for being with us. 
In Oregon, we have a lot of small harbors. Through the 
appropriations process each year, we lobby intensely to the 
Office of Management and Budget to get the funds for dredging 
those harbors.
    In general, we have been getting them dredged every other 
year. When they are not dredged, it is a calamity to commerce. 
The wave swells get higher, much more dangerous. We have lost 
people through dangerous passage.
    I think it would be very helpful to have a specific set-
aside for the small ports in WRDA, so we are not just lobbying 
from the outside every year. Is that something that you could 
conceive of supporting?
    General Semonite. Sir, I will defer to Mr. Fisher. But I 
believe we have that right now. We normally exceed the goals of 
that particular set-aside. You and I talked, I think last year.
    We normally, I think, are doing 13 or 14 small harbors 
because of that. And they don't have to compete. But I would 
defer to Mr. Fisher.
    Mr. Fisher. Yes, actually, I don't know if I could add 
anything on top of that. We look at the small harbors around 
the country and the funding allocated to them. I think those 
compete well in Oregon. We will look forward to working with 
you.
    Senator Merkley. I pushed for a set-aside within the 
funding process. But I don't think we have it in the 
authorization process. This is where I think it might be useful 
to have that back.
    Mr. Fisher. OK, yes, we certainly are willing to work with 
you on that.
    General Semonite. I think you are probably right, sir, it 
is the authorization side you are looking for. Yes, sir.
    Senator Merkley. Thank you.
    And Ms. Bertrand, I go to every county every year and hold 
an open town hall. We have 36 of them in Oregon. Beforehand, I 
meet with our county commissioner, city council, so on and so 
forth, all the local officials. The issue they raise more than 
any other is water infrastructure. Clean water supply and 
wastewater treatment.
    This is the reason that I wrote the bill to create the 
WIFIA program, Water Infrastructure Finance Innovation Act. 
Eventually, we got it funded, started funding to it. That seems 
to be up and rolling pretty well. I think it will expand as 
more communities become familiar with it. It saves a whole lot 
on the interest for big projects.
    But I think we need to have a lot more help for the small 
communities. WIFIA hasn't worked well, it has a high 
application fee, $50,000; it has a low minimum, or a high 
minimum of $5 million project. We have lots of small towns in 
Oregon that are striving to meet the EPA's standards for clean 
water supply and wastewater treatment.
    Let me ask you this. Do you have any suggestions for how we 
can do a better job at meeting the infrastructure challenges 
for small towns and cities in clean water supply and wastewater 
treatment?
    Ms. Bertrand. Thank you for bringing up WIFIA. We agree 
with you that it has been a very successful program.
    Yesterday, we announced that we invited 38 more projects to 
apply. Once those loans are closed, it will be $6 billion in 
new infrastructure. So we are very happy with the progress that 
we have made in three rounds.
    There are some innovative ways that we are seeing that we 
can get to smaller communities through the loan that we did in 
Indiana, where we have small projects that can work together. 
We do offer that assistance to applicants to help them with 
their letters of intent and through their application process, 
to help them get through.
    We would be happy to work with this Committee on any other 
new and innovative ways that we can assist small communities in 
utilizing this important tool.
    Senator Merkley. I do understand the strategy of having 
small communities partner together. In reality, on the ground, 
it is extremely difficult, because projects are in different 
phases.
    Some have done the preliminary work necessary to have an 
engineering concept, some haven't, et cetera. So I just want to 
keep working with you all to see how we can make these projects 
more affordable to small communities.
    We still have wooden pipes supplying water in Oregon. Many 
people didn't even know wooden pipes ever existed. I didn't 
know until I first had folks tell me about digging them up.
    On the wastewater side, the infrastructure is very 
expensive per person for a small town. So it is a real 
challenge. I will just look forward to continuing to brainstorm 
about how we can provide more Federal help on that.
    Thank you.
    Senator Barrasso. Senator Carper.
    Senator Carper. Thanks.
    Senator Merkley and I found ourselves at the same airport a 
week ago. He was going one way; I was going the other way. He 
mentioned to me that he goes to every county of his State every 
year, at least once every year. I told him there are some days 
I go to every county in Delaware, we only have three of them.
    [Laughter.]
    Senator Carper. It is a unanimous opinion, General 
Semonite, that the Army Corps, the work you do from one end of 
our State to the other, is much needed and deeply appreciated. 
I just want to make that clear.
    Senator Merkley. Senator, I just might interrupt for a 
second if I could, and say that I was so impressed that you 
were able to visit all three of your counties in a single day. 
I am going to invite you to come to Oregon and have you show me 
how to visit all 36 of mine in a single day.
    [Laughter.]
    Senator Carper. I could probably learn from you.
    Senator Barrasso. People in Iowa are visiting close to 99 
counties in Iowa, and they are trying to do it between now and 
the upcoming election.
    Senator Carper. Yes, that is true. My wife was out 
visiting, I just told you the other day.
    Senator Barrasso. Chuck Grassley and Joni Ernst, all 99 
counties apparently every year. It is astonishing.
    Senator Carper. Yes, it is, especially for Chuck. He is 86 
years old, he just celebrated his 86th birthday, if you can 
believe that, Senator. Senator Grassley, what a guy.
    I want to follow up on some things, some concerns that 
Senator Cramer was raising just a few minutes ago when he spoke 
and asked some questions.
    I just want to follow up if I could with you, Ms. Bertrand, 
with respect to Waters of the U.S.
    When it comes to the role for States and cooperative 
federalism in the recently proposed WOTUS and 401 certification 
regulations, it really seems to me that EPA is talking out of 
both sides of its mouth.
    In the WOTUS definition, the EPA argues that States should 
have the power to protect waters that no longer fall under the 
Clean Water Act jurisdiction.
    Conversely, EPA's proposed 401 regulations argue that 
States should not have the power to protect their waters from 
federally permitted projects that would harm their water 
quality.
    I asked earlier for a yes or no, and now I am going to ask 
for a yes or no as well. Yes or no, does EPA's proposed WOTUS 
rule rely on State authorities to ensure water quality 
standards are met?
    Ms. Bertrand. So we are in the middle of a regulatory 
process right now where we do believe that we are following the 
appropriate process and interpreting the Clean Water Act in the 
correct way.
    Senator Carper. Would that be a yes or a no?
    Ms. Bertrand. I think it is a--we believe that we have 
moved forward in the appropriate way for both of these 
regulations that you have referred to.
    Senator Carper. Let me try another approach. Yes or no, 
does EPA's proposed 401 rule give Federal permitting agencies 
the ability to effectively veto State water quality decisions? 
Just yes or no, please.
    Ms. Bertrand. Thank you, Senator. I would like to ask if 
you could direct the question to the record and ask me to 
provide you a question for the record.
    Senator Carper. Yes, we will.
    Ms. Bertrand. Thank you.
    Senator Carper. And we will look forward to a prompt and 
timely response.
    Ms. Bertrand. I understand.
    Senator Carper. Another question, if I could, Ms. Bertrand, 
for you. You testified earlier this morning that--this is I 
think a quote--due to a lack of appropriations, EPA has not 
implemented AWIA provisions.
    And isn't it the EPA's responsibility to at least request 
funding for those provisions consistently? I think, if I am not 
mistaken, this Administration proposes cuts to the EPA budget, 
not by a little bit, but by a whole lot. That appears to me 
that this EPA, at least maybe this Administration, really 
doesn't have an intention of fully implementing AWIA as 
Congress intended.
    Your thoughts.
    Ms. Bertrand. So if I may, I do want to clarify that there 
were 30 different provisions in AWIA, many of them were the 
most--it is the most far reaching modifications to the Safe 
Drinking Water Act since 1996.
    There are many that we have been able to move forward on 
where we do have appropriations, and the nexus between the 
appropriations that were already existing and the programs were 
appropriate for us to start to work on. So for example, we have 
a stormwater infrastructure funding task force that was part of 
AWIA. We already had an Environmental Finance Advisory Board, 
and we were able to use part of what already existed to start 
that important work.
    Senator Carper. I don't mean to be rude, but I am going to 
have to ask you to hold that and to respond more fully for the 
record, please.
    Ms. Bertrand. Certainly.
    Senator Carper. On the one hand, for you to say that due to 
lack of appropriations, EPA has not implemented AWIA's 
provisions when EPA doesn't ask for money and the 
Administration, if you do internally, the Administration always 
kicks it back or kicks it down, that is just not----
    Ms. Bertrand. There are many that are in our 2020 budget, 
and we would be happy to provide you with more detail.
    Senator Carper. Great. I look forward to it.
    One last question, if I could, for Mr. Fisher. This is 
regarding budgeting for WRDA requirements.
    During our May 2019 hearing on oversight of the Corps Civil 
Works program, Major General Spellman testified that the Corps 
was able to use funding received under its expenses account to 
complete most reports and activities required by the 2018 and 
prior WRDA bills. This came up, I think, due to concerns raised 
by a number of Senators over the Corps' delays in implementing 
AWIA provisions.
    Mr. Fisher, let me just ask, the Corps consistently 
responds to these concerns by saying that there are, again, a 
lack of appropriations to implement various WRDA provisions. In 
many cases, however, this justification for failure to act 
seems an excuse for not addressing a specific congressional 
mandate as it seems the Corps' budget remains at least static 
in each Administration budget cycle.
    Do you anticipate the Administration will increase the 
Corps' budget request this year, and in future years, to 
account for the shortfall between existing funding levels and 
the legal requirements placed on you by Congress?
    Mr. Fisher. We are certainly working with the 
Administration and Office of Management Budget, as well as 
Corps headquarters, to make sure we are using the resources we 
have wisely to finish reports and do everything we have. I 
think General Semonite, I might kick it to you for a status 
update on some of those.
    General Semonite. Sir, I think that in the past, we were 
probably too quick to say we didn't have all the right funding. 
You asked us to provide 37 reports. So General Spellman and I 
have been relatively ruthless this year, going back and saying, 
where do we get funding, where is there an expectation that 
that should be able to pay for a report.
    Of those 37 reports, three are done, nine are with Mr. 
James right now, all done, ready to be approved and come over. 
Fifteen we are still working on; we will get them done in the 
next couple of months. But they are all funded.
    That only leaves 10 that are pretty substantial and we 
don't have money for those. So we will continue to put them in 
our budget.
    What we are going to try to do, though, is give you an 
interim report, maybe something just 3 or 4 pages long, that 
says, here is at least, to be able to meet your intent. And if 
you want the 100 page version, then we have to find those 
funds.
    But we are committed--when Congress asks us for a report, 
we are committed to try to give you that answer in a timely 
manner, and if not, make sure that we identify the funds, like 
you said earlier, so that you can help us get those moneys.
    Senator Carper. Fair enough. Thank you very much.
    Thank you for coming today, and thank you for filling in 
for Secretary James.
    Senator Barrasso. Thank you, Senator Carper.
    Mr. Fisher, one of the purposes of water resource 
legislation is to authorize water infrastructure projects to 
ensure America's locks, dams, levees, other related flood 
prevention infrastructure remains reliable and in good working 
order.
    Recently, we had the sudden collapse in Wyoming of an old 
Federal irrigation tunnel. I say old; it was built in 1917. I 
was there, and you can see on the cement, 1917 written, and it 
was the Bureau of Reclamation, but it didn't say Bureau of 
Reclamation, because this was even before the Bureau of 
Reclamation existed, 1917.
    So it has created significant economic losses for farmers 
and ranchers in Wyoming and Nebraska, all the areas, about 
100,000 acres that were covered in this irrigation area.
    I think it was just a reminder of the threats posed by 
aging infrastructure. So are there new and innovative tools 
that you have to better detect vulnerabilities in 
infrastructure, and specifically water infrastructure, and then 
go and try to fix them prior to the failures that can occur?
    Mr. Fisher. I will probably let General Semonite address 
some of the technologies and innovations that our Engineering, 
Research and Development Center are coming up with at Erdrick 
Dunn and Vicksburg.
    On the policy side of things, General Semonite mentioned 
some of the authorities we are looking to utilize, the public-
private partnerships, the WIFIA program that Congress has 
authorized for the Corps. We will, on a policy side, tackle 
some of these problems that we are detecting. We want to use as 
many tools as we have, such as those authorities, to get at 
them, as well as traditional funding mechanisms, as well.
    Senator Barrasso. General Semonite, anything on the new 
technology?
    General Semonite. Mr. Chairman, we are working this in two 
ways. A lot of this goes back to data. And we are looking at 
our data very, very closely. We have a bunch of reliability 
data now, and predictive analysis. We have 715 locks and dams. 
So we know pretty much how many times can that gate open before 
we begin to have some problems.
    So even to the point where we are standardizing a lot of 
our locks and dams, we are able to figure out, when do we need 
a standby one. Instead of buying a standby gate for every 
single lock, how do we have one that might fit 10.
    The other thing we are doing, though, when it comes to the 
technology side of stuff, remember the Orville Dam in 
California; it wasn't a Corps dam, but the spillway there 
failed. So now we are doing things like ground penetrating 
radar, how can we go back in and look through the integrity of 
the dam to try to figure out, are there gaps. Our labs are 
doing an awful lot of great work here.
    I don't think we are where we need to be, but it is not 
because we don't necessarily understand the requirement. It is 
just being able to make sure we are leaning on the best and the 
brightest technologies, really worldwide. We do a lot with 
Holland on this, the Netherlands. We are trying to figure out 
what are the best tools out there.
    Senator Barrasso. One last question for you. The Corps has 
management responsibility for about 34 miles of levees outside 
of Jackson Hole, Wyoming, in the area that you are very 
familiar with. These levees are currently being repaired. They 
are critical to the protection of the community. Will you 
commit to working with this Committee to ensure these repairs 
are completed in a timely manner to provide protection to this 
community?
    General Semonite. Absolutely, Senator.
    Senator Barrasso. Thank you.
    Well, if there are no other questions, and we have had 14 
members of the Committee show up here today to ask questions, 
which shows the great interest and the importance of the work 
all of you are doing, so we appreciate all of you being here.
    Members may submit questions for the record.
    The hearing record will stay open for 2 weeks. I ask you to 
get back and answer all the questions within that 2 week period 
of time.
    I want to thank all of you for your time and testimony 
today.
    The hearing is adjourned.
    [Whereupon, at 11:55 a.m., the hearing was concluded.]

                                 [all]
</pre></body></html>
